SUPREME COURT OF THE UNITED STATES
No. 19X
JOHN DOE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
X
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 5,384 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.

Sworn to and subscribed before me
this 25th fBsu of Oct^&er, 2019.

Elias Melendez
Notary Public State
No. 24-4799661
Qualified in Kings County
Commission Expires Aug. 31, 2021
#292104

